<html>
<title> - THE DEFENSE SECURITY SERVICE: HOW BIG IS THE BACKLOG OF PERSONNEL SECURITY INVESTIGATIONS?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





   THE DEFENSE SECURITY SERVICE: HOW BIG IS THE BACKLOG OF PERSONNEL 
                        SECURITY INVESTIGATIONS?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2000

                               __________

                           Serial No. 106-267

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
74-831 DTP                  WASHINGTON : 2001

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone (202) 512�091800  Fax: (202) 512�092250
              Mail: Stop SSOP, Washington, DC 20402�090001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH-HAGE, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                  J. Vincent Chase, Chief Investigator
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2000...............................     1
Statement of:
    Leonard, J. William, Deputy Assistant Secretary of Defense 
      for Security and Information Operations, Command, Control, 
      Communications and Intelligence, Department of Defense; and 
      General Charles Cunningham, Director, Defense Security 
      Services...................................................    54
    Schuster, Carol R., Associate Director of National Security 
      International Affairs Division, U.S. General Accounting 
      Office; and Donald Mancuso, Acting Inspector General, 
      Office of Inspector General, Department of Defense.........     5
Letters, statements, etc., submitted for the record by:
    Cunningham, General Charles, Director, Defense Security 
      Services, prepared statement of............................    72
    Leonard, J. William, Deputy Assistant Secretary of Defense 
      for Security and Information Operations, Command, Control, 
      Communications and Intelligence, Department of Defense, 
      prepared statement of......................................    58
    Mancuso, Donald, Acting Inspector General, Office of 
      Inspector General, Department of Defense, prepared 
      statement of...............................................    23
    Schuster, Carol R., Associate Director of National Security 
      International Affairs Division, U.S. General Accounting 
      Office, prepared statement of..............................     7
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3

 
   THE DEFENSE SECURITY SERVICE: HOW BIG IS THE BACKLOG OF PERSONNEL 
                        SECURITY INVESTIGATIONS?

                              ----------                              


                     WEDNESDAY, SEPTEMBER 20, 2000

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays and Biggert.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; Alex Moore, 
fellow; Jason M. Chung, clerk; David Rapallo, minority counsel; 
and Earley Green, minority assistant clerk.
    Mr. Shays. This hearing of the Committee on Government 
Reform Subcommittee on National Security, Veterans Affairs, and 
International Relations is called to order.
    Our subject this morning: Oversight of the Defense Security 
Service: How big is the backlog of personnel security 
investigations?
    Seven months ago we heard testimony on the serious risks to 
national security posed by a staggering backlog of background 
investigations and reinvestigations, a backlog then estimated 
to approach 900,000 individuals seeking confidential, secret 
and top secret clearances. The Defense Security Service [DSS], 
the agency responsible for screening those in the DOD, have 
access to national secrets, said plans were in place to reduce 
the backlog to increase the quantity and improve the quality of 
personnel security checks.
    Today the subcommittee revisits issues raised by 
longstanding deficiencies at DSS. We look for tangible progress 
toward repairing a vulnerable link in our very important 
security shield. The time for optimistic plans and rosy 
projections has long passed.
    The longer the backlog festers, the greater the threat to 
security and productivity at DOD.
    Awaiting reinvestigation are thousands who should not be or 
need not have access to classified material any longer. At the 
same time, agencies are losing qualified new hires who cannot 
wait almost a year for DSS to complete an initial 
investigation. In addition, defense contractors have found 
themselves unable to perform billions of dollars worth of work 
because employees have not obtained routine clearances.
    This frankly just boggles my mind. How big is the backlog? 
Incredibly even this central question still cannot be answered 
with any accuracy. According to the General Accounting Office 
[GAO], DOD continues to rely on episodic surveys of fragmented 
questionably accurate data bases to determine the extent of 
overdue clearances and future needs.
    With only a guess at the scope of the problem, DOD can only 
speculate about the dimensions, the complexity and the costs of 
a longterm solution. The capability to anticipate DSS workload 
and budget needs and to prioritize security investigations, 
will not be in place for 2 years. Yet critical decisions are 
being made now about how many cases to direct to outside 
contractors and the optimal capacity of the internal DSS 
computer system.
    That DSS remains a high risk enterprise, as the 
Department's Inspector General observed, was convincingly 
demonstrated when the agency's case control management system 
suffered a critical failure in July. Despite some subsequent 
success in stabilizing the system and reaching productivity 
goals, DSS plans to eliminate the backlog in a matter of months 
now appears to stretch out for years.
    Over that time, DSS will require the sustained attention 
and support of senior Pentagon leadership, both civilian and 
military. DSS has not had that support in the past. Indifferent 
oversight and outright neglect by the Office of the Assistant 
Secretary for Command Control Communications and Intelligence 
allowed DSS to degenerate. Only proactive management and 
unwavering budget support at the same level will restore a 
security function that touches almost every aspect of DOD 
operations.
    So there is no time to quibble over the meaning of the word 
``backlog'' or indulge in the happy fiction, ``failing more 
slowly equals success'' for DSS.
    We look for an unguilded description of DSS recovery 
efforts to date and a frank assessment of the challenges that 
remain. Repairing the personnel security investigation process 
requires an unrelenting focus on protecting national security, 
not public relations.
    We welcome the testimony of all our witnesses this morning 
as the subcommittee continues our oversight of the Defense 
Security Service.
    We have two panels comprised of two people at each panel. 
Our first panel is Ms. Carol R. Schuster, Associate Director of 
National Security International Affairs Division, U.S. General 
Accounting Office; Mr. Donald Mancuso, Acting Inspector 
General, Office of Inspector General, Department of Defense.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T4831.001
    
    [GRAPHIC] [TIFF OMITTED] T4831.002
    
    Mr. Shays. At this time if you would stand, I would swear 
you both in.
    [Witnesses sworn.]
    Mr. Shays. Let me just say, before you both begin, in 
reading and preparing for this hearing it's fairly clear to me 
that we don't have happy news. But the purpose of this 
subcommittee is not to just expose unhappy news, the purpose is 
to make it right. And so I'm not looking to cast blame at 
anyone. I am looking to be part of what I hope all of us are, a 
solution and one that comes quickly.
    My view, when I read the testimony, every time I read it, I 
get more outraged by the fact that we spent billions of dollars 
to try to improve our defense, and this area here would do 
wonders to improve our national defense. So I hope that we come 
up with concrete solutions and some real specific discussion as 
to what can be done to improve and make better this terrible 
situation.
    Ms. Shuster.

STATEMENTS OF CAROL R. SCHUSTER, ASSOCIATE DIRECTOR OF NATIONAL 
     SECURITY INTERNATIONAL AFFAIRS DIVISION, U.S. GENERAL 
    ACCOUNTING OFFICE; AND DONALD MANCUSO, ACTING INSPECTOR 
  GENERAL, OFFICE OF INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

    Ms. Schuster. Mr. Chairman, I am pleased to be here today 
to discuss GAO's recent report related to DOD's backlog of 
overdue personnel security clearance investigations. As you 
have acknowledged in the past, periodic reinvestigations are an 
important part of the government's efforts to protect national 
security information and lessen the Nation's vulnerability to 
espionage. Completing these investigations when due is critical 
because individuals retain access to classified information, 
even though their clearances may be out of date. Yet, in 
January 2000, DOD estimated that its backlog of overdue 
reinvestigations had grown to about a half million cases or 
about one of every five individuals holding a clearance.
    Today I would like to briefly summarize the major findings 
of our August 2000 report and ask that my full statement be 
submitted for the record.
    Last February, when we testified before this subcommittee 
on the quality and timeliness of DSS investigations, questions 
were raised about the accuracy of DOD's backlog estimate. At 
your request, we examined the methodologies, the deputy used to 
estimate its backlog and found that DOD does not have a data 
base that can provide a real time accurate estimate of the 
backlog. As a result, it is variously estimated the size of the 
backlog on an ad hoc basis through data calls to the services 
and statistical sampling methods. Resulting estimates since 
1998 have been widely divergent, ranging from 452,000 to 
992,000 cases. It's two most recent estimates which use very 
different methods coincidentally achieve similar estimates of 
about 505,000.
    The first relied on a data call that asked security 
managers throughout DOD to manually count their overdue 
reinvestigations. The second relied on statistical sampling to 
refine what it knew to be a grossly inaccurate estimate 
extracted from existing data bases. While the two most recent 
estimates were close, neither is particularly reliable due to 
their methodological limitations. For example, when the 
counting method was used, we found that because guidance was 
not specific, the services used different ``as of'' dates and 
inconsistent methods to arrive at their estimates. Some of the 
input was 6 months old or older by the time the estimate was 
reported. And DOD made no effort to validate methodologies or 
the accuracy of the counts.
    Likewise, the second estimate was also flawed in that only 
half of the 1,200 individuals sampled responded to the survey 
and the necessary followup was not performed to make the 
estimates statistically valid. And, based on the definition 
used, both estimates excluded as many as 94,000 overdue 
reinvestigations that had been submitted to DSS for processing. 
The vast majority of these cases were overdue. One estimate 
also excluded those holding confidential clearances.
    DOD will begin testing a new joint personnel adjudication 
system data base in November 2000, which it believes will allow 
real time accurate counts of overdue reinvestigations. However, 
it will not be fully operational until November 2001. In the 
meantime, an enormous amount of effort continues to be expended 
to manually estimate the backlog. As recently as September 
11th, the Deputy Secretary of Defense made yet another data 
call for DOD components to estimate the size of the backlog. 
This will be the seventh estimate since October 1998, yet, 
because the directive did not specify methodology to follow, 
there's no assurance that this estimate will be any more 
reliable than the succession of estimates that have already 
been made.
    But, I would like to end my remarks on a more positive 
note. We recommended in our recent report that DOD design 
routine reports showing the full extent of the backlog and 
develop incentives to ensure that reinvestigation requests are 
submitted on time. I am pleased to report that DOD's controller 
has redefined the backlog to include all investigative workload 
including that awaiting processing at DSS. This will enable the 
department to better plan how it will address the full extent 
of the backlog. Also in June, DOD set forth a detailed phased 
plan for eliminating the backlog by September 30, 2002. 
Implementing guidance now specifies as was the case in 1999, 
that security managers must either terminate or downgrade 
clearances if a reinvestigation request has not been made by 
this date. This should provide an important incentive for DOD 
components and their security managers to submit 
reinvestigation requests in a timely manner and hopefully head 
off any future potential backlog.
    Finally, DOD has acknowledged the importance of increased 
oversight of this vexing national security problem, and has 
asked each component to designate a senior official to monitor 
execution of the phased plan for eliminating the backlog. This 
latter action is responsive to an earlier GAO recommendation 
and should serve to emphasize within the Department the 
importance of ensuring that personnel security clearances are 
based on up-to-date investigations.
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to answer any questions that you have.
    Mr. Shays. Thank you Ms. Schuster.
    [The prepared statement of Ms. Schuster follows:]
    [GRAPHIC] [TIFF OMITTED] T4831.003
    
    [GRAPHIC] [TIFF OMITTED] T4831.004
    
    [GRAPHIC] [TIFF OMITTED] T4831.005
    
    [GRAPHIC] [TIFF OMITTED] T4831.006
    
    [GRAPHIC] [TIFF OMITTED] T4831.007
    
    [GRAPHIC] [TIFF OMITTED] T4831.008
    
    [GRAPHIC] [TIFF OMITTED] T4831.009
    
    [GRAPHIC] [TIFF OMITTED] T4831.010
    
    [GRAPHIC] [TIFF OMITTED] T4831.011
    
    [GRAPHIC] [TIFF OMITTED] T4831.012
    
    [GRAPHIC] [TIFF OMITTED] T4831.013
    
    [GRAPHIC] [TIFF OMITTED] T4831.014
    
    [GRAPHIC] [TIFF OMITTED] T4831.015
    
    Mr. Shays. Mr. Mancuso.
    Mr. Mancuso. Mr. Chairman, thank you for the opportunity to 
discuss the results of recent Inspector General audits related 
to the vitally important functions of personnel security 
clearance investigation and adjudication. Simply put, the 
inability to track and promptly complete personnel security 
investigations has had a devastating effect on a department's 
ability to ensure that national security is protected, and that 
military civilian and contractor employees have the timely 
clearances needed to complete their jobs. On a human level, the 
lack of timely clearances prevents people from obtaining 
employment in DOD, and in the case of contractor employees, 
causes the loss of hundreds of millions of tax dollars paid to 
contractors from employees awaiting clearance. As with most DOD 
management challenges, the huge scale of the program makes it 
inherently difficult to administer. More than 700,000 initial 
investigations are needed annually as well as several hundred 
thousand reinvestigations to update existing clearances.
    Approximately 2.4 million DOD and contractor personnel hold 
clearances at any given time. Unfortunately, as your 
subcommittee hearing last February indicated, the program has 
serious problems in the area of automation and resources. As 
GAO reported, in their September 1999 audit, some actions taken 
by previous DSS management team were ill-advised and merely 
created new problems, especially in quality control over 
investigations. The failure of CCMS, the DSS Case Control 
Management System, was also a major setback.
    Finally DOD has lacked accurate information on the existing 
or forecasted workload and related resource requirements for 
both the investigative and adjudicative portions of the 
program.
    Over the past 2 years, DOD managers have become more 
involved in the problems at DSS than they had previously, and 
several changes have been made beginning with the appointment 
of General Cunningham in June 1999. Over the past year, DSS has 
taken action to implement GAO and IG recommendations, cancel 
questionable policies, outsource more work and acquire Air 
Force assistance to remediate their information system.
    In April 2000, I testified on the issues confronting DSS 
before the Senate Armed Services Committee. Our position at 
that time, which remains essentially the same today, is that 
the DOD plan to quickly eliminate the backlog of overdue 
clearances through a combination of outsourcing and internal 
changes was overly optimistic. Specifically, the plan assumed 
DSS could close an average of 2,500 cases per day beginning 
this year. In practice, however, DSS has completed over 1,500 
cases per day in the first 11 months of the year and was unable 
to reduce the backlog. We also question the workload 
projections believing them to be significantly understated and 
cautioned that it would probably take years, not months, to 
overhaul the entire personnel security program.
    We specifically recommended that the Department needed to 
actively oversee and manage the workload at DSS in the 
adjudication facilities, implement performance metrics, 
periodically assess and adjust resource requirements, develop a 
DOD-wide security system, improve tracking of security 
clearances, and closely monitor management of CCMS and JPAS, 
the Joint Personnel Adjudication System. All those actions 
remain very necessary today, and most of them entail sustained 
senior management attention.
    I'll emphasize the last three of those items, beginning 
with our concern over the need to prioritize security 
investigative case workload, which has been perhaps our most 
controversial recommendation. In our April 2000 report on 
priorities, we discussed a number of case management issues. 
The principal concern is the lack of a meaningful process for 
prioritizing the workload. We determined that the resources 
were generally applied on a first-in/first-out basis.
    The clearance requests for important programs and higher 
risk programs often languished while investigators often worked 
on routine cases. C3I, the Office of the Assistant Secretary of 
Defense Command Control Communications and Intelligence, 
initially disagreed with the feasibility of developing a 
prioritization method but has subsequently changed its position 
and has been working with the services and DSS to comply with 
the recommendation. I'm still frankly disappointed, however, 
with the slow progress, and am concerned that it appears so 
difficult to implement what is to us a basic workload 
management tool.
    As with many other problems facing the department, the 
desire to gain consensus resulted in a time-consuming process. 
We believe this delay was unnecessary and could have been 
avoided through firm decisionmaking by leadership. We haven't 
seen the current plan and we are anxious to work with the C3I 
people on that and share our thoughts with them and I know they 
indicated they welcome that coordination.
    In May 2000, we issued another report in which we noted 
that DSS lacked an effective means for tracking the status of 
security clearance requests. DSS could not identify on a case-
by-case basis why more than 12,000 electronic requests received 
between July and December 1999 did not result in investigative 
cases being opened. Similarly we found more than 50,000 
investigative cases that were opened during that period without 
electronic requests, although using electronic requests was 
mandatory and was important for maintaining control and 
improving efficiency.
    DSS and C3I agreed with our findings but noted that the 
necessary corrective actions depend partially on improving the 
CCMS and implementing the JPAS. Because JPAS will not be 
operational until at least 2002, we continue to believe that 
DSS should be seeking interim measures. The need for a modern 
system with the capabilities intended for CCMS is undeniable, 
but has often been the case over the last decade with DOD 
information technology investments, the execution of this 
system acquisition project was flawed.
    In retrospect DSS and its contractors badly underestimated 
the technical risk and failed to test adequately to manage 
those risks. We are currently auditing the system and plan to 
issue a draft report in the next few weeks.
    As previously noted, DSS has prudently turned to the Air 
Force systems acquisition management support, and indications 
are that the system is being stabilized. DSS reported an 
average of 2,523 cases closed per day in August 2000, which is 
certainly a very positive sign, assuming that this high level 
of performance can be sustained.
    The CCMS will reach a critical milestone in 2002 when the 
Department must decide whether to deploy an overall enterprise 
system architecture for DSS. In the interim, the system must 
prove that it can process an average of 2,500 cases closing per 
day. Various initial design inefficiencies must be resolved and 
additional reliability and maintainability testing is needed. 
In addition, DSS should aggressively benchmark the system 
against other systems performing similar functions.
    We're also conducting several other reviews involving the 
security and investigative and adjudication processes. These 
reviews have been coordinated with GAO to prevent duplication.
    So in summary, the enormous scope of the defense personnel 
security program makes an inherently difficult management 
challenge. It is important that the Department avoid piecemeal 
solutions such as its ill-fated attempt to address productivity 
and capacity at DSS by arbitrarily limiting the number of 
security clearance requests that DOD components were allowed to 
submit.
    We believe that with the somewhat stronger recent support 
of the Office of Secretary of Defense, DSS is making reasonable 
progress in its current reengineering effort, although not as 
quickly as planned earlier this year. DSS will need continued 
close oversight and adequate support. It is particularly 
important that lingering confusion about the size and 
definition of the backlog and the likely investigative and 
adjudicative workload over the next several years be eliminated 
to enable proper planning.
    Thank you for considering our views on this subject and I 
certainly welcome questions.
    [The prepared statement of Mr. Mancuso follows:]
    [GRAPHIC] [TIFF OMITTED] T4831.016
    
    [GRAPHIC] [TIFF OMITTED] T4831.017
    
    [GRAPHIC] [TIFF OMITTED] T4831.018
    
    [GRAPHIC] [TIFF OMITTED] T4831.019
    
    [GRAPHIC] [TIFF OMITTED] T4831.020
    
    [GRAPHIC] [TIFF OMITTED] T4831.021
    
    [GRAPHIC] [TIFF OMITTED] T4831.022
    
    [GRAPHIC] [TIFF OMITTED] T4831.023
    
    [GRAPHIC] [TIFF OMITTED] T4831.024
    
    [GRAPHIC] [TIFF OMITTED] T4831.025
    
    [GRAPHIC] [TIFF OMITTED] T4831.026
    
    [GRAPHIC] [TIFF OMITTED] T4831.027
    
    [GRAPHIC] [TIFF OMITTED] T4831.028
    
    [GRAPHIC] [TIFF OMITTED] T4831.029
    
    [GRAPHIC] [TIFF OMITTED] T4831.030
    
    Mr. Shays. Would you, Mr. Mancuso, would you read your 
opening paragraph again. It's not--which you're more than 
welcome to do. I couldn't find the statement in your draft that 
you submitted. So would you--if would you read the opening 
paragraph again.
    Mr. Mancuso. Simply put, the inability to track and 
promptly complete personnel security investigations has had a 
devastating effect on the Department's ability to ensure that 
national security is protected and that military civilian and 
contractor employees have the timely clearances needed to 
complete their jobs. On a human level, the lack of timely 
clearances prevents people from obtaining employment in DOD, 
and in the case of contractor employees, causes the loss of 
hundreds of millions of tax dollars paid to contractors or for 
employees awaiting clearance.
    Mr. Shays. This is the second hearing we've had, and we 
have some of the same people back. We had a hearing on February 
16th entitled ``Defense Security Service Oversight'' and this 
is on top of a hearing we had on the inability of the Defense 
Department to even do basic audits. But devastating effect, as 
you describe it, is a pretty strong wording. Ms. Shuster, would 
you describe it the same way?
    Ms. Schuster. I have not used the word ``devastating,'' but 
I do believe that it is an important impediment to our national 
security when you have a half million people that have not had 
up-to-date clearances. These people are continuing to handle 
classified information and so it does pose a major threat to 
our national security, in my opinion.
    Mr. Shays. Maybe you can just make sure we're talking the 
same language. You say 500. You point out it can be between 400 
and 900, why do you choose 500? What gives you the right to do 
that?
    Ms. Schuster. I suppose any of the estimates is probably as 
valid as the next one.
    Mr. Shays. But I'm just curious, you're giving validity, it 
could be much more than that.
    Ms. Schuster. It could be. The latest two estimates are the 
ones that we're using, which are coincidentally the same, but 
as we pointed out, there are methodological limitations that 
raise questions about that. So it really does not have 
validity.
    Mr. Shays. OK. Explain--if both of you would explain to me 
what makes this such a difficult task? To me, let me just 
preface my remarks by saying that I represent an area with a 
lot of IT companies. And they point out to me Priceline.com, 
for instance, is in the District, Jaywalker and others, and the 
people at IT firms will point out to me, it used to be the big 
ate the small. But now they say the small--the fast eat the 
slow. And so I know DOD is big, but I know it's extraordinarily 
slow. It doesn't make me feel very comfortable about other 
things that go on in DOD if we can't get a handle on this.
    And so the question I have is, in your judgment, what makes 
it such a difficult task, both of you? I mean, in seems to me 
to be kind of like widgets in a way. I mean, you know what you 
got, and you know what you got to produce and you do it.
    Ms. Schuster. If I could just answer that, I think Mr. 
Mancuso put the right emphasis in his comment about the source 
of the problem that we have here, and that is that there were 
quotas placed on the number of submissions that could be sent 
to DSS for 3 years from 1996 to 1999. No one was supposed to be 
submitting these periodic reinvestigation requests. That led to 
a pent up demand. So that's why we had this backlog.
    Mr. Shays. Is that kind of like a deferred maintenance 
program? That's what they used to have in the State of 
Connecticut, and all of a sudden the bridges fall and the roads 
break apart.
    Ms. Schuster. Right. Pay me now or pay me later kind of an 
approach. So because it didn't have visibility--they were not 
submitted--no one really knew how many were out there. And then 
the problem became apparent back in basically October 1998. 
There was a joint security commission review, and then there 
was a Presidential budget decision in December 1998 that really 
brought the problem to light. And at that particular time the 
backlog was estimated at 866,000. So if you were just dealing 
with an ongoing steady State workload, it would be a big 
workload to begin with. But when you have that many extra 
cases, then it just magnifies the problem.
    Mr. Shays. Let me--Mr. Mancuso.
    Mr. Mancuso. I think you started off, you said, well, we 
know how many widgets or we know what's coming in. That's the 
real issue, we don't know. And DSS doesn't know. And that's why 
we don't know what the backlog is. It's very hard to develop an 
organization that can be responsive to a level of work when you 
yourself don't know how much work is out there and the 
Department, unfortunately, seems to be unable to get their arms 
around that. Which is why we don't know if the backlog is 
500,000 or 900,000. So we don't really know what's out there. 
Over the years with the downsizing of DOD, there's been an 
artificial depression of the level of resources in DSS. It's my 
understanding that the cut that they have taken over the years 
is dramatically more than the overall average cut in DOD. So 
once you lost that base of knowledge, once you lost that base 
of employees, you're playing a major game of catch-up. So the 
best you can do is limit how much you're willing to accept. And 
they did that.
    So one of our main proposals has been there needs to be an 
honest look at what is the resource need. What is out there.
    Mr. Shays. But we had that discussion in February.
    Mr. Mancuso. And as I mentioned it was our recommendations 
earlier this year, and it remains today that we feel there 
still needs to be a better accounting for measurement of what 
are exactly the resource needs of DSS and the adjudicative 
bodies as well. Because even if DSS is corrected and is able to 
produce a high level of output, we already know that the 
adjudication facilities are swamped and will not be able to 
process that output.
    So for the customer, it doesn't really matter if it's taken 
a year in DSS or a month in DSS, if they're not going to see it 
because it's sitting in the adjudication facility. So we're 
concerned. So the Department has been putting resources in some 
of those areas, but not all.
    Mr. Shays. I will get back to that in 1 second. I would 
like to take care of some housekeeping so I don't forget it. 
We're joined by Judy Biggert, the gentlewoman from Illinois. 
Ask unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record and that 
the record remain open for that for 3 days for that purpose. 
Without objection so ordered.
    Ask unanimous consent that all witnesses be permitted to 
include their written statements in the record. Without 
objection so ordered.
    Let me ask you, then, you've broken it up in two parts--
actually there are three. Identifying the number, second doing 
the actual investigations, then the adjudication of it which in 
my simple mind is just the analysis of the investigative 
working, the adjudication.
    Mr. Mancuso. The adjudication facilities as I understand it 
review the work done by the investigators and consider whether 
or not to eventually forward the clearance.
    Mr. Shays. Right.
    Mr. Mancuso. But there's a huge glut of work that involves 
clearances that are contested for some reason. The derogatory 
information that needs to be pursued, that requires additional 
time by adjudicators and followup.
    Mr. Shays. Where is the big bottle neck as far as you know?
    Mr. Mancuso. There's certainly a bottle neck in both 
places. But right now what we see is improvements in DSS has 
shown in their ability to produce 2,500 a day.
    Mr. Shays. One simple thing would be if they could move 
forward with adjudication if they in fact have already done a 
number of investigations. It would seem to me if they don't--
the longer they wait from when the investigation work was done 
to the adjudication makes almost the investigative work 
meaningless.
    Mr. Mancuso. That's correct. That's why we agree that the 
Department needs to continue to put resources there. But we 
don't feel that they're actually doing the analysis to 
determine the appropriate level of resources, and, in fact, 
we're just completing an audit in that area.
    Mr. Shays. It almost strikes me that needs to happen in 
tandem with their just moving forward. In other words, there's 
a basic concept, if you have a pile of paper on your desk, you 
don't just keep looking at the pile, you take one and just get 
it done. And the less times you handle the paper, the more 
ultimately efficient you are. But I guess what--I'm ending my 
time and come back, after Mrs. Biggert is recognized, but I 
guess what I'm trying to understand when I use the concept of 
widgets, this is not rocket science, it doesn't strike me. You 
do investigative work, you have a certain number of people that 
come on and off, you do investigative work, you also then have 
to analyze your investigative work and make a decision. And 
we're not talking about a lot of new scientific processes. 
We're talking about really what I think of as a lot of grunt 
work and just getting the job done.
    Mr. Mancuso. We are talking about increased numbers. I know 
in some of our analysis we found, we looked at a single month 
in the summer of 1999 compared to a month in the summer of this 
year, if I recall on one facility, the difference was between 
3,000 and 12,000. And the adjudication facilities for the 
services of the DOD are of different sizes. But the workload 
changes in some of those offices are beyond anything that could 
be just simply handled by knowing a little more efficiency. 
What we feel is that a good solid look needs to be done to try 
and properly project what that workload may be, make the 
decision and to staff those positions, whether on a temporary 
basis or longterm basis and move forward. Some of that has been 
done by the Department. We feel in our audit reports, that are 
out for comment, I believe, that more needs to be done.
    Mr. Shays. OK. I'll come back. I'd like to recognize Mrs. 
Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. In your written 
testimony, you state that the backlog is estimated by DOD to be 
505,000 people, or that has grown to that. If all these people 
are--are all these people, does that mean that their security 
clearance is outdated?
    Ms. Schuster. Yes. Anyone who's in the periodic 
reinvestigation backlog is overdue for a clearance. There are 
some time periods within which they're supposed to be updated, 
and all of them have passed that time and many of them are way 
past that time.
    Mrs. Biggert. So what does that mean?
    Ms. Schuster. It doesn't mean too much that individual--
because the individual is allowed to continue to handle 
national security information, even though his clearance is not 
up to date. That's what makes it so important that we solve 
this problem.
    Mrs. Biggert. So if it doesn't mean anything, then they're 
probably not as worried about updating?
    Ms. Schuster. Right. There hasn't been an incentive up to 
now to do that. Now, as I mentioned in my earlier statement, 
recently there has been a directive put out that if at the end 
of this 2-year period when they're trying to have all the 
backlog submitted to DSS for investigations, their clearance 
has not been submitted--October 1, 2002--then they're supposed 
to downgrade or terminate the clearance. That does provide an 
incentive for security managers to submit the request on time.
    Mrs. Biggert. And then have you suggested that or talked 
about putting in new computer equipment, or to help to do this 
so that they can work on the backlog.
    Mr. Mancuso. There is a system and the system, until very 
recently, was unable to keep up with the level of manual work 
that was being done, collective work that was being done to 
track it.
    That system appears to be back online now and we're hoping 
that the system will continue in its ability, as it did last 
month, to be able to track these things. By having an automated 
system, working properly, the level, the number of clearances 
that can go through the overall DSS review process will 
certainly increase.
    Mrs. Biggert. OK.
    Mr. Mancuso. I would add, there is always some confusion 
when we talk on this subject when we talk about backlog and 
700,000 initials a year that come through. I think just by way 
of example, we're not just talking about someone who has a 
reinvestigation. I may have a reinvestigation, and mine may be 
overdue, and that may or may not be an issue to some people. 
But what we see are outstanding issues--and I can give you a 
couple of examples. I have a military officer that works for 
me, I have small number of military officers in my civilian 
organization, and he's a major in the U.S. Army. We put him in 
our audit section and we need him to upgrade his clearance for 
top secret. It has taken 13 months to do that. And during this 
time we can't use him in those areas. I can go through any 
number of examples like this.
    Mr. Shays. But that's just astounding--if the gentlelady--
that's just astounding. You're saying it like it's, you know, 
just a fact.
    Mr. Mancuso. It is a fact.
    Mr. Shays. I know. But it's not just a fact, it's an 
outrage.
    Mr. Mancuso. Well, it's a concern that we all have, and as 
I pointed out in my remarks, there is a human level. Now, DSS 
is sensitive to this situation.
    Mr. Shays. So what does he do while he's there?
    Mr. Mancuso. We have him do other work that would not 
involve him being involved on the particular projects that his 
skills may be used for.
    Mr. Shays. The whole point of his being there is that he 
have some security to be able to do the job. So it makes you 
less efficient, it makes you unable to cover the things that 
you need to find. I mean, the ripple effect of this is truly 
mind boggling. I mean, I appreciate the gentlelady yielding, 
but it's almost like you're used to it now, so even you are 
kind of that's the way it is.
    Mr. Mancuso. I will say and want to say this very quickly 
in defense of the people that manage DSS, General Cunningham 
and others, they're certainly extraordinarily sympathetic to 
that and they could probably tell you 100 other stories they've 
heard like that. It is a huge problem. There are a large number 
of people, we have weak systems to support it, and they're 
making some management changes that we feel are appropriate. 
They need to learn to prioritize better. And that's a major 
concern we have that I spoke about. They need their information 
systems to work. They're trying to get them online. They need 
to probably get some additional resources or reallocate 
resources in a few areas. I think they're looking at that. 
Those are all recommendations that we've made and that GAO has 
made. They need to know what's coming in the door. So they need 
the cooperation of who are involved.
    Mr. Shays. But these are basic simple kinds of questions 
that you learn in high school. I mean, these are not things 
that take an advanced degree.
    Mr. Mancuso. I agree. We have to personally explain to 
someone to get the results and I'll give you another example in 
the Defense Criminal Investigative Service, which also works 
for me, they've developed an expertise in computer intrusion 
which is a major problem in the Defense Department. They needed 
one computer engineer, just one computer engineer. I believe 
it's now been 17 months since we submitted the clearance 
request. That person has not been hired. Now, at some point, 
that person may tell us, I'm getting a job with IBM or 
something, and we'll start the process all over again. We don't 
have the person on board. But I'm not blaming DSS. I'm blaming 
the system, and this is a big problem.
    Mr. Shays. Let me get back to Mrs. Biggert. But basically, 
you know, it was just pointed out to me that's basically the 
life-cycle of the whole generation of a computer.
    Mr. Mancuso. That's true.
    Mr. Shays. It makes me very afraid for my country. Because 
it is the fast that eats the slow. That truly is where we're 
at. When we met in February, I remember saying that we were 
going to have everybody back, and the story is really worse 
rather than better. It is.
    Mr. Mancuso. I think that people are in a better position 
now to understand the full breadth of the problem. I think what 
you heard was somewhat overly optimistic.
    Mr. Shays. I'm sorry. We'll get to that later. I mean----
    Mr. Mancuso. Well----
    Mr. Shays. You can say it again. I want to give Mrs. 
Biggert her time back.
    Mrs. Biggert. This too troubles me, if you have somebody 
for 13 months that's waiting for a clearance means that his 
talents that he was put into that position to do are wasted for 
13 months while he's sitting doing other work, that might be 
important but not as important as having this to be 
accomplished.
    On page 10 of the GAO with the estimates of the periodic 
reinvestigation backlog, just Ms. Schuster, the basis for 
determining overdue investigations, and you have a table, and 
I'm sorry, I don't know what this ``access'' means.
    Ms. Schuster. I can explain that. There are two methods for 
determining whether a person's clearance is overdue. One is 
eligibility, and that means if they were originally cleared at 
the top secret level, that's their eligibility. In the interim, 
perhaps the person no longer needs to have access to top secret 
information. So perhaps their clearance would only need to be 
updated at a secret level. The time periods are different for 
those two. The time period for top secret is every 5 years, the 
period for secret is every 10 years. So that's the difference 
between access and eligibility.
    Mrs. Biggert. You also state, though, that it seems that 
according to the DOD, that many individuals are eligible for a 
higher clearance than are required to do the job. It almost 
sounds like do they put the higher clearance in so that if they 
want to move them up, that they have that clearance, and it 
wouldn't take the 13 months then for somebody to have that 
clearance?
    Ms. Schuster. In the last couple of iterations, when 
they've tried to estimate the size of the backlog, what they 
have done is tried to emphasize access. So when they go back to 
the security managers and ask whether people need a clearance, 
they say ``Do they still need the clearance at this level or is 
it a different level?'' So now they're trying to move to a 
system where they only are putting people in for the clearance 
at which they have access to, not the one that they originally 
got which might be higher.
    Mrs. Biggert. OK. Is that because then they don't have to 
redo it as often?
    Ms. Schuster. That's part of it. That has had the effect of 
lowering the number of periodic reinvestigations that are in 
the backlog. I think there was a decrease from 624,000 to 
505,000 by emphasizing access.
    Mrs. Biggert. So it really wasn't that those were taken 
care of, it might have just been a reduction in the 
classification that they needed?
    Ms. Schuster. It has to do with the definition that they 
used to determine the backlog. They used the definition of 
access, and they also used the definition of only those that 
have not been submitted to DSS for processing.
    Mrs. Biggert. So it's not as if there's been an improvement 
in numbers, but just----
    Ms. Schuster. It's definitional.
    Mrs. Biggert. Thank you. Thank you, Mr. Chairman.
    Mr. Shays. Let me do this, let me--I'll exercise my right 
to interrupt the staff, but I'd like the staff to ask some 
questions, and we'll start with Larry Halloran, then we'll go 
with you, David.
    Mr. Halloran. I would like to explore the issue of 
prioritizing cases with you if I could. It's something that was 
discussed at the February hearing that was imminent, and that 
it was a way to weed out the easy stuff and the deadwood from 
the backlog and get to the more critical security risk type of 
cases or investigations in the backlog and get to them first. 
Apparently that is--we'll hear later that hasn't happened yet. 
Can you tell us, you know why not or what's the challenge to 
their--where they stand?
    Mr. Mancuso. Well, it was only after some time after April 
that the Department agreed to, in fact, implement our 
recommendation and seek a priority action plan.
    Mr. Halloran. So they oppose it's in the first instance.
    Mr. Mancuso. They opposed it initially.
    Mr. Halloran. Did they say why?
    Mr. Mancuso. They felt it would be very, very difficult, 
time consuming, and would take them away from the plan that 
they had to move forward to reduce backlog. We felt it was 
important and they listened to us and eventually agreed to 
pursue that plan.
    And they've done that and they've coordinated with the 
services and department agencies. But the process has taken a 
long time. When you're seeking consensus and agreement on how 
to prioritize, it's going to take a while longer than it would 
take to simply direct it from the top. It's my understanding 
that that process is continuing, that the Department hopes to 
have some sort of a process in place in the next few months. We 
haven't been briefed on that process. We welcome the 
opportunity and we will be, I understand, offered the 
opportunity to comment on it and work with them on it. And 
that's really where we are right now.
    Mr. Halloran. As I understood your recommendation it was 
that the same system of prioritizing or ranking be applied both 
to the backlog and to new requests, that both be prospective 
and retrospective; is that correct?
    Mr. Mancuso. That would certainly be our preference.
    Mr. Halloran. What would your comment or reaction be if the 
plan they eventually shared with you was only prospective?
    Mr. Mancuso. I'll attempt to discuss that. I think the only 
way to really handle the problem is to allow the various DOD 
components the opportunity to prioritize what they feel is 
truly important in their work, and to, therefore, fit those 
concerns into the plan. So I think it should be on a broad 
basis and not just for a few of the high risk programs.
    Mr. Shays. That doesn't happen now.
    Mr. Mancuso. Oh, no. Now it's pretty much first come/ first 
serve, other than they certainly have a list of a number of 
programs.
    Mr. Shays. See, I can't believe that. Intuitively, I can't, 
because there has to be certain clearances that are so 
important to national security.
    Mr. Mancuso. There are certain programs that absolutely 
receive preference and are handled quickly. And there's a long 
list of them, I don't know what the number is, maybe 70. It's a 
large number. But if you look at the number of people that are 
affected by that compared to the numbers that we're talking 
about, it's a fraction. So what we're saying is it needs to 
cover a lot more of the people, and it needs to allow some 
flexibility for the component to truly bring on people that are 
important, or to update clearances that they feel are truly 
important.
    Mr. Halloran. Ms. Schuster, it would be helpful for our 
general discussions if you could talk a little bit more in 
depth of your work in terms of the backlog and some kind of 
subsets of that. I mean, there are reinvestigations that are at 
DSS and overdue. They're reinvestigations that are out there 
some place that are either about to be due or overdue that 
haven't been shipped in yet. There are new investigative 
requests coming in. Give us a sense with the numbers that you 
came across in your work as to how big each bucket might be, 
or--and also, second part of the question is given us a sense 
of when the Deputy Secretary puts out, one of these data calls, 
I mean, who is he calling, or where are they looking? What do 
they have to look at?
    Ms. Schuster. Let me answer the first question. This is a 
moving target. You've got things coming due all the time, and 
you've got some cases being closed, so it's a moving target. If 
it was static, it would be a real easy problem to solve. But 
it's not. So even trying to analyze the statistics is 
difficult. But one move in the direction that we have 
recommended is to get an entire estimate, as flimsy as it might 
be, of the workload that is existing at DSS and OPM, as well as 
the backlog of the estimated 500,000, and put it all together. 
This is exactly what they have done. The plan that they now 
have on the table for the next 2 years includes both of those 
pieces. The things that are continuing to come in, the things 
that are already on the table that haven't been opened yet, as 
well as the backlog. That total new is 2.2 million cases over 
the next 2 years.
    Mr. Halloran. So that's their estimate, the kind of 
universe of work over the next 2 years, including working so-
called backlog, however, somehow defined down to nothing?
    Ms. Schuster. What they are trying to do is to get all the 
backlogged cases submitted into the investigative community 
over the next 2 years. That's what the controller's plan is. 
And there's a detailed plan that has been set forth for the 2 
year period.
    Mr. Halloran. Does the plan also have an average processing 
time, that DSS goal, so we'll know when those submitted cases 
will come out the other end?
    Ms. Schuster. As I understand it, they are working within 
C3I guide to come up with some metrics that would have 
expectations for how long it should take for each kind of case. 
When we looked at investigations before, they were all over the 
board. So there isn't any standard right now for how long it 
should take for a particular kind of case. And there are any 
number of kinds of cases in this 2.2 million backlog. Some of 
them are very automated and don't take really very much time, 
and others are full field investigations that require a whole 
lot of work and over 200 days to complete.
    Mr. Halloran. Do you find the assumptions underlying that 
2.2 million estimate to be fairly sound? And second part 
thereof, is what external factors confound that estimate 
further?
    Ms. Schuster. The 2.2?
    Mr. Halloran. Yes.
    Ms. Schuster. Well, first of all, we've already gone over 
how flimsy the 500,000 is, so we don't really know whether 
that's a good estimate or not. We do know how many cases are 
called carryover cases--these already submitted to DSS. Over 
the next 2 years, they've got 435,000 of those cases. Then 
you've got the backlogged cases and then you've got new cases 
that are coming in. So all told, we're talking about an 
enormous workload here of 2.2 million cases coming into the 
investigative community. As I understand it, the spending plan 
for this 2-year period is just to get the cases submitted, and 
then it's up to the investigative community to somehow deal 
with that. And they have been trying very diligently to ramp up 
to prepare for that. We haven't really seen the influx yet. A 
lot of the cases that are going to OPM really start at the 
beginning of the fiscal year in October. And so, it's really 
hard to tell exactly what kind of an effect this large influx 
of cases is going to have and whether the ramp-up with private 
contractors and reservists and the like are going to make a 
dent in that.
    We understand that the cases at OPM are highly automated. 
They also have some longer investigations on civilians, but 
many of the cases that have been shifted over to OPM are highly 
automated. They seem to be keeping up with those so far. But we 
haven't seen the large influx into OPM either. The real problem 
seems to be, in my mind, at DSS, and whether the capacity there 
will be enough to cover this large influx. I think they can 
submit the cases within the 2 years, but whether they can get 
them investigated and adjudicated, I have questions about that.
    Mr. Rapallo. Just back very quickly on the question of 
prioritization, what do you recommend, Mr. Mancuso, as sort of 
an ideal system for implementing that?
    Mr. Mancuso. We didn't propose an ideal system in our 
audit. We looked at the overall issues, we analyzed it, and we 
said there needs to be a prioritization system, and it needs to 
cover various programs, etc., and that it needed to address the 
concerns of the customers.
    We did not dictate a program. We thought the Department 
needed to pull one together and, hopefully, to coordinate it 
with us. At this point, I am not fully aware of what they will 
be proposing.
    Again, I do welcome the opportunity to discuss it with 
them, and I would hope that they would listen to our ideas and 
that we would succeed in agreeing on what a good system is. 
But, frankly, it will be their system. In the end, they will 
make the decision as to what the system will be.
    Mr. Rapallo. There was a suggestion, I think it was DSS, 
for a central requirements facility. What do you think of this 
idea?
    Mr. Mancuso. I am not specifically aware of that.
    Ms. Schuster. I talked to General Cunningham about that. I 
think General Cunningham has the right idea in trying to get 
the services to come up with a way to integrate the 
requirements into the PPBS system so that they can somehow 
project their workload and budget for it.
    One of the problems that has occurred over the last couple 
of years is they have mandated these submissions, but the money 
has not been behind it. So the services have been cajoled to 
put in submissions, but the money has to be reprogrammed from 
other programs in order to cover it. That has been true for 
1999, it has been true for 2000, and it is true for 2001. They 
hope to put money in the budget for 2002 to cover it, but when 
the money is not there and the services choose not to reprogram 
the money for that purpose, then the submissions are not made. 
And it is going to be the same thing this year, I am afraid, 
because the money is not there this year either. They have to 
reprogram funds to cover it.
    Mr. Rapallo. In terms of how it would actually work, it 
sounds like both of your opinions are that it can't be just an 
individual program determination within their own purview. If 
has to be something more systemic and department-wide.
    Mr. Mancuso. I would hope that would be the case, or at 
least have some flexibility to address some of the more 
routine, if you can call them routine, clearances, but to 
address those as well as the ones that are applied just to 
certain programs.
    Mr. Rapallo. One other question. Ms. Shuster, your report 
talked about the lack of incentives for submitting these 
reinvestigations. In your oral testimony you gave an update. 
Could you just describe again what the process will be, as you 
understand it?
    Ms. Schuster. As I understand it, in this recent directive 
from C3I, they said if the submissions are not made by the end 
of fiscal year 2002, any clearance that has not been submitted, 
should be downgraded or terminated.
    The other provision in that directive is that if at some 
point after it has been downgraded or terminated there becomes 
a need for that person to have that clearance level reinstated, 
then they would be allowed to do so on the condition that they 
have submitted their paperwork for a reinvestigation. So there 
is a little wiggle room there for them to work with.
    Mr. Rapallo. So they submit the reinvestigation; otherwise, 
it will be terminated or downgraded or something?
    Ms. Schuster. Downgraded.
    Mr. Rapallo. Why do you have to wait until 2002 for that to 
kick in?
    Ms. Schuster. That could happen right now, but I think they 
are just allowing a little lead time. That provision was in an 
earlier directive back in 1999, and it was omitted in this more 
recent memo of March 2000 when they sent out that directive it 
wasn't in there. And so in our report we recommended that they 
reinstate some sort of an incentive for submitting these things 
on time. If they are not submitted on time, then the backlog 
becomes invisible and you can't deal with it. You can't plan 
for it if you don't know that it is there.
    Mr. Rapallo. Thank you.
    Mr. Shays. Is it possible that a number of the 
investigations they do become irrelevant because the people 
have left?
    Ms. Schuster. In this latest data call where they have gone 
out and tried to get a more accurate estimate of the people, 
they have tried to cull out the people who are no longer 
employed by DOD. What others have found before this is that 
some of the people that were in the backlog actually were no 
longer employed by DOD.
    Again, this is a weakness in the data system that they have 
right now.
    Mr. Shays. I said try. My question was very simple. My 
question was, is it possible that they are doing background 
checks and adjudicating people that may have already left?
    Ms. Schuster. I don't think that is probably the case.
    Mr. Shays. Under what basis can you make that claim?
    Ms. Schuster. They have to verify residency. I don't 
think--the original application would have to be made, and it 
has to be a real person there in order to make the application.
    Mr. Shays. A person can live in the same house--I don't 
understand your answer.
    Ms. Schuster. The starting point for the investigation is 
an application, and so the person would have to fill out an 
application for the investigation.
    Mr. Shays. But the application is 6 months old or 7 months 
old or 8 months old or a year old.
    Ms. Schuster. I think General Cunningham will have to say 
what the starting point is for the investigation, but I am sure 
one of the very first things would be to verify that that 
person is still on the role.
    Mr. Shays. Why? Tell me. You are sure. Why are you sure?
    Ms. Schuster. I guess I am not entirely sure. I think 
General Cunningham can answer that question.
    Mr. Shays. Yes, but you attempted to answer it, and you 
gave me a definitive answer, and I am just puzzled why you 
would do that. I am beginning to be a little suspect of the 
system. Tell me this, both of you. Why isn't the system in 
meltdown? Tell me a reason why I shouldn't think it is in 
meltdown right now?
    Ms. Schuster. I think they have a plan in place now at 
least. The last time when we came before the committee, they 
did not have a plan. Now they have a very detailed plan to have 
the entire backlog submitted by the end of 2002. That is an 
improvement over what they had before.
    Now, whether they are able to handle the investigations in 
take period, I think there are still questions about that. But 
at least it will become visible. You will have them in the 
system and you will be able to hopefully ramp up to handle the 
extra investigations.
    Mr. Shays. Ms. Shuster, when you came before us in 
February, you came here in February, was the system in 
extraordinarily bad shape?
    Ms. Schuster. I would say that even before we completed our 
work and testified with you before, DSS had made tremendous 
strides in implementing our recommendations.
    Mr. Shays. Is that the question I asked?
    Ms. Schuster. You asked if it was in shambles, I guess.
    Mr. Shays. I want you to listen to the question, and I want 
you to answer the question. When you came before us in 
February, wasn't it your testimony that the condition was in 
extraordinarily bad shape?
    Ms. Schuster. What we testified to at that particular time 
was the quality and the timeliness of the investigations that 
had been done at DSS over a period of time, and we found 
significant weaknesses in both the quality of the 
investigations and the timeliness of those investigations.
    Mr. Shays. Didn't you also share with this committee that 
we had a very large backlog?
    Ms. Schuster. Yes, I believe we did. That was not the focus 
of our statement, but, yes.
    Mr. Shays. Is the backlog better or worse? Just answer the 
question. Then you can tell me other things if you want to.
    Ms. Schuster. Our analysis gets very complex. Our bottom-
line is that we believe that the periodic reinvestigation 
backlog has been reduced by about 44,000. However, the pending 
investigations at DSS have increased by 50,000. So you can sort 
of see the backlog moving into the investigative community.
    Mr. Shays. So it is your testimony that investigations, we 
have caught up on investigations, but we still have 
adjudication. I am trying to understand your answer.
    Ms. Schuster. What we have seen is that the backlog----
    Mr. Shays. Which backlog are we talking about?
    Ms. Schuster. The periodic reinvestigation backlog that is 
estimated at 500,000. Counting the ones that have been added to 
as new requirements for periodics and taking off the ones that 
have been submitted, we think that they have cut into the 
backlog by about 44,000. So we think it is an improvement in 
terms of the backlog.
    Mr. Shays. Let me ask you this question: Do we have more 
pending investigations now than we did then?
    Ms. Schuster. Yes, 50,000.
    Mr. Shays. So the number at DSS has grown. It has not 
decreased.
    Ms. Schuster. The number has grown consistently.
    Mr. Shays. This sounds like tremendous bureaucracy in terms 
of your answer to me. The answer, it seems to me, is the number 
has grown, not decreased. So we are worse off rather than 
better off.
    Ms. Schuster. The backlog number has been decreased by 
44,000.
    Mr. Shays. But what good is that if the numbers keep 
increasing? That seems kind of silly to me.
    Ms. Schuster. What you are seeing is a movement of the 
backlog from not----
    Mr. Shays. If my staff said to me, the backlog--they had 
gotten the backlog of the letters down, but they have more 
letters today, I wouldn't think that was an accomplishment.
    Ms. Schuster. The bottom line is that we are not getting 
the things through the system, and interim clearances are being 
granted to make up for this backlog. It is just moving through 
the system, and I think it will move into the investigative 
community, and then it will move into the adjudication 
community. So it is going to move through the system.
    Mr. Shays. Do we have more to investigate now than before 
or less?
    Ms. Schuster. The backlog----
    Mr. Shays. I didn't say backlog.
    Ms. Schuster. The workload at DSS----
    Mr. Shays. I didn't ask adjudication, I asked 
investigations.
    Ms. Schuster. The investigations have grown from 181,000 
cases a year ago at DSS to 439,000 now. So that is the whole 
workload of many different kinds of cases. The periodic 
reinvestigations number has grown from 61,000 a year ago to 
113,000 now.
    Mr. Shays. I am talking about that they have actually 
investigated? That they completed?
    Ms. Schuster. These are pending.
    Mr. Shays. So the pending number of investigations has 
grown rather than decreased.
    Ms. Schuster. Correct.
    Mr. Shays. OK. It took us a long time to get that answer.
    Ms. Schuster. Sorry.
    Mr. Shays. Now, if you want to tell me I shouldn't be 
concerned with that, feel free, but I just want the answer, and 
the answer is the number of investigations, pending 
investigations, has grown. It has not decreased. It was pretty 
bad before, and you are telling me somehow that I should feel 
comfortable that it is better now, even though it has grown. 
And don't tell me it is complex.
    Ms. Schuster. I don't know how to answer that question, 
other than the definition that they used for periodic 
reinvestigations has, from our complex analysis of it, shows 
that number----
    Mr. Shays. I don't understand what you say, from your 
``complex analysis.'' What does that mean? What is your 
definition of a complex analysis?
    Ms. Schuster. Well, what makes it complex is things are 
going in and coming out and opening and closing and moving.
    Mr. Shays. You call that complex?
    Ms. Schuster. It was for us.
    Mr. Shays. Mr. Mancuso, can you shed some light on this? 
Are we better off today?
    Mr. Mancuso. The best light I could shine would be, because 
we are the IG's office small DOD component, 1,300 people, and 
we have pending investigations, those are investigations for 
people we want to hire, we have reinvestigations for people who 
are already hired.
    Mr. Shays. I understand.
    Mr. Mancuso. I believe I understand exactly what Ms. 
Shuster is saying. In our case, what we would probably find is 
the number of reinvestigations that we have pending is probably 
getting better.
    Mr. Shays. What do you mean better?
    Mr. Mancuso. Meaning they are coming out faster and the 
number is going down, the ones that are in there. But the ones 
that we are pushing in on the front end, the pending ones, is a 
larger number, because we are funding them now, we have been 
ordered by the Department to fund them, and we are pushing them 
out at DSS.
    Mr. Shays. Turn off the light.
    Mr. Mancuso. I would assume Ms. Shuster is right, that 
among DSS, as the components do that, the number of pending 
cases is increasing, whereas DSS's work is----
    Mr. Shays. Is getting worse. Their workload is increasing.
    Mr. Mancuso. Their workload is certainly increasing.
    Mr. Shays. So we are not better off. You are trying to tell 
me that I should feel better that their productivity has 
increased, but their productivity is slower than the increase 
in their workload.
    Mr. Mancuso. I didn't think I told you you should feel 
better, sir. I don't feel better. I feel they have a huge 
problem.
    Mr. Shays. I will take the word off, feeling better. The 
bottom line is they are getting more productive, but their 
workload is increasing, and that we have a greater backlog, and 
it is--do we have a greater backlog? Excuse me, do we have more 
pending cases?
    Mr. Mancuso. In the sense you are describing the term----
    Mr. Shays. I don't want to get into the silly argument of 
backlog. The number of cases has increased to a point there are 
more cases that haven't been dealt with today than were a while 
ago. Basically, that is your testimony. Both of you are 
agreeing. So you both understand each other, and I am happy you 
both understand each other. But the bottom line is the 
implications of that are kind of mind-boggling. To me, it says 
there are more people who are waiting to have their cases 
reviewed, rather than less.
    Now, maybe your comment to me would be, yes, but they don't 
have to wait as long.
    Mr. Mancuso. I would also add, though, and I am sure that 
is going to be in the testimony of the next panel, that if I 
were speaking to you earlier this year, I would be telling you 
that, yes, it--the backlog--is going to get bigger and bigger. 
They are only producing 1,400 cases a day and they need to 
produce 2,500 a day in order to make a dent. What we have seen 
now, at least in August, they have reached their target of 
2,500 cases a day.
    We predicted earlier in the year that it would take a long 
time to reach 2,500 cases a day, and their belief they could 
average 2,500 cases a day for the whole year is too optimistic.
    Mr. Shays. When they came to us----
    Mr. Mancuso. I would argue we should see continuing 
progress. We have to monitor it, we have to measure it, we have 
to stay on top of things, we have to make sure their 
information system stays on line and is capable of processing 
those things, we have to make sure the adjudication facilities 
have the resources to take the work and finalize it and get it 
out. But it is fair to say that there is improvement. It is 
fair to say that all the indicators now are that they are 
reaching a turning point.
    But, yes, in answer to your question, certainly the volume 
of the problem is at least as large as it was months ago.
    Mr. Shays. I am not a particularly negative person, but the 
analogy I could give you is that you got a lot of water in the 
boat, and it ain't moving very quickly because there is so much 
water in the boat, and it is sinking. And you are saying, well, 
now we are bailing out more water, but more water is coming in 
than we are bailing out.
    So my simple mind says the boat sinks.
    Mr. Mancuso. My simpler mind would say we are finally 
fixing the hole a little bit.
    Mr. Shays. And you want to make that based on--perhaps, 
because you wanted to make it based on 1 month's basic--a month 
and a half's record.
    Mr. Mancuso. No, we are paid to be skeptics.
    Mr. Shays. No, based on what has happened since August.
    Mr. Mancuso. I was very careful in my written statement to 
say I think that it is a positive sign. We also think it has to 
be shown they think they can continue to do it.
    Mr. Shays. I didn't say it was a positive sign that you are 
bailing out more water, but what is a negative sign is more 
water is coming in than is going out.
    Mr. Mancuso. And that is a fact.
    Mr. Shays. And that is a fact. All I want to do is 
establish facts. I was willing to have you qualify and 
everything, but I just wanted to understand that more water is 
coming in than is going out. But you are happy now, and I am 
happy to have you say that, that you think that maybe in the 
last month they proved that maybe they can get more water out 
than is coming in.
    You are free to say that. But I just want to understand 
what you are saying. It is illogical to me--I mean, it seems 
logical to me to at least understand that the system we were--
we were told in February by the organization, DSS, that we 
would be better today rather than worse. And we said, you will 
be back here, which is something the committee sometimes does. 
You know, when people make claims like that, sometimes we say, 
great job. Maybe I am going to say great job to the fact they 
have done this. I don't know. But it is not going to be great 
job. They have done part of it.
    It tells me we have a very, very serious situation. 
Sometimes C-SPAN covers hearings, and I think why do they cover 
that hearing? And then they don't cover this hearing, and I am 
thinking, this is a hearing that the American people need to 
see. They need to know that you have people that even you have 
said work for you and have worked for longer than a year that 
haven't yet had their clearance, so they are not a waste to 
you, but they are not being optimized. We know that contractors 
are spending billions of dollars because they can't simply get 
the job done on time or get the job done at all, and we know 
that there are probably people that have clearances who 
shouldn't have clearances, and we know there are people who are 
just getting wasted.
    What I see is, in my judgment, a meltdown. That is what I 
see. You don't have to see it as a meltdown, but I see it that 
way, because I don't see the Secretary saying we are going to 
use all the resources necessary to get the job done.
    When I worked at the State level, it could take years to 
build a new entrance or exit on the throughway; and then when 
we lost the Mianus bridge, we had a ramp built in 2 days. 
Admittedly, it wasn't up to spec and the cars didn't move on it 
as quickly, but they literally had to get off the throughway, 
I-95, get off and on. People said, my God, what are we going to 
do? We had to do something. They came together and got the job 
done.
    If I hear an analogy that this is like changing a car tire 
while the car is moving, I am not going to think that it is 
Firestone. But what I am going to think of is, why don't you 
get two damn cars? And you have one on the side and you get the 
other system working and you work them both in tandem. The only 
reason you wouldn't do that is money, and that says to me that 
the Department feels that this is not a problem. And yet we are 
wasting billions of dollars.
    So I just think it is a major mess. I am happy you all 
think things are going pretty well.
    Ms. Schuster. I would just like to correct the record, if 
you got the impression that I thought things were going well, 
because I do not believe things are going well. What I see is a 
shift in the backlog into the investigative community, and I 
have real questions about whether they have the capacity to 
deal with it.
    Mr. Shays. You know what? I put words in your mouth 
purposely to elicit the statement that now I know you believe--
now, what is your statement?
    Mr. Mancuso. Exactly, Mr. Chairman. There are significant 
problems. I mean, the train--to use another analogy, the train 
seems to be back on the track and moving. It could fall off 
tomorrow.
    Mr. Shays. But it is going backward.
    Mr. Mancuso. It is sliding a bit backward, that is right. 
All I can tell you is we looked to evaluate their progress. 
What we finally see is some hint that they are moving in the 
right direction. It remains to be seen how successful they will 
be over time.
    Mr. Shays. Fair enough. I accept the word hint. I can live 
with the word hint.
    Why don't we get on to the next panel?
    Do you have a question?
    Mr. Rapallo. Just one question. Has anyone tried to 
evaluate--you talked about the number of new investigations 
that might be submitted over the next few years at 2 million 
and something. Has anyone tried to evaluate the number of cases 
per day DSS would have to do so that it was decreasing that, 
all this backlog, and we would be improving? Is it 2,500 or 
something higher than that?
    Ms. Schuster. I think DSS would have to answer that, but 
the target they have today is 2,500 per day, which they met in 
August for the first time.
    Mr. Shays. That is a pretty basic question, though.
    Ms. Schuster. That is right. It is a basic question.
    Mr. Shays. If that is the target and you feel happy about 
the target, but there are--but the numbers have increased, 
maybe this should not be the target.
    Thank you all, both of you, very much. We will get to our 
next panel.
    I would ask Mr. Leonard, if you remain standing, and 
General Charles Cunningham, we will swear you in and get right 
to your testimony.
    [Witnesses sworn.]
    Mr. Shays. Note for the record both witnesses responded in 
the affirmative.
    Your written testimony will appear in the testimony. You 
are free to read that or basically make any statement you want. 
You are also free to answer any questions that have been asked.
    I want to say to both of you that I don't put the blame in 
any one place. I think the blame belongs in Congress, the blame 
belongs in the Department, the blame belongs in the agency. It 
belongs in many places. But the bottom line is I would like to 
think we are going to see a major change, so that is my motive. 
What is it going to take to see a real improvement?
    We first want to know how you assess the problem, and then 
we will go from there.
    So, Mr. Leonard, why don't we start with you, sir?
    Mr. Leonard. Thank you very much, Mr. Chairman.
    Mr. Shays. Let me make another comment. I will let the 
clock run, because I want both of you to make whatever 
testimony you need to make. We will do it in 5-minute segments.

STATEMENTS OF J. WILLIAM LEONARD, DEPUTY ASSISTANT SECRETARY OF 
   DEFENSE FOR SECURITY AND INFORMATION OPERATIONS, COMMAND, 
    CONTROL, COMMUNICATIONS AND INTELLIGENCE, DEPARTMENT OF 
  DEFENSE; AND GENERAL CHARLES CUNNINGHAM, DIRECTOR, DEFENSE 
                       SECURITY SERVICES

    Mr. Leonard. Thank you, sir. I would like to just summarize 
my statement and submit the full written statement for the 
record.
    But right up front, let me acknowledge to you, Mr. 
Chairman, that I am sitting here before you as the individual 
who is personally responsible and accountable from an 
oversight, policy and guidance perspective to oversee a 
solution to this problem and to ensure that it doesn't happen 
again. In no way, shape or form do I or anyone else associated 
with my organization minimize the seriousness necessary of this 
issue.
    I am hard-pressed to identify any similar type of situation 
that so permeates every aspect of DOD operations as does this 
issue. Maybe finance, it may be the only other one that maybe 
permeates every element so severely, and I am truly cognizant 
of that impact.
    Also, I am sitting before you with the full knowledge that 
a significant part of the solution is to address shortcomings 
in past oversight from my organization, especially with respect 
to things such as overseeing the acquisition of a major 
automation system such as CCMS. I recognize that and am very 
much committed personally and organizationally to ensure that 
we address these issues in the months to come.
    At the last hearing, the Department--at that time we were 
engaged in the process of developing plans and procedures and 
funding to implement the recommendations of an overarching 
integration process team that then Deputy Secretary Hamre had 
convened to address and refine and resolve the PR backlog 
problem.
    On March 31st, Dr. Hamre directed that the OIPT 
recommendations for eliminating the PR backlog, at least, the 
505,000 cases, and that the necessary resources identified be 
obligated to accomplish this objective.
    This plan included removing CCMS as a choke point by 
vectoring a substantial portion of DOD's high volume, lesser 
scope investigations to the Office of Personnel Management 
[OPM], in fiscal year 2001 and 2002. It balances the DOD 
investigative workload with 45 percent to be retained at DSS, 
40 percent vectored to OPM, and 15 percent to DSS's private 
sector providers. The plan also extended the deadline for 
elimination of the investigative backlog until fiscal year 
2002.
    More recently, the GAO completed a report, as we just heard 
before, for your committee on the backlog; and we did concur 
with the two recommendations contained within the report. There 
were some concerns expressed with respect to the various 
methodologies used to arrive at the size of the backlog, and at 
the same time it was also acknowledged that a more accurate 
assessment would prove quite problematic. I personally am very 
frustrated by our inability to achieve greater granularity and 
insight into the exact scope of this issue.
    However, in the near term, the problem will be resolved, at 
least a long portion of it will be, when DOD fields the Joint 
Personnel Adjudication System [JPAS], in fiscal year 2001, 
which is the migration DOD personnel security system, which 
will require the continuing tracking and input of an 
individual's actual access requirement upon which a periodic 
reinvestigation is based.
    DOD has agreed with GAO with respect to the fundamental 
need to do a better job in this area. We have also agreed with 
the recommendation to administratively terminate or downgrade 
individual security clearances unless their PR is completed or 
in process by September 30, 2002.
    In addition, in June of this year, the DOD comptroller, in 
close coordination with my organization, the DOD components, 
DSS and OPM, issued a spend plan, which provides detailed 
guidance regarding the submission of PR backlog cases to both 
DSS and OPM over a 24-month period beginning next month. The 
plan, as recommended by the OIPT, requires that all military, 
secret and confidential, both initial and periodic 
reinvestigations, be sent to OPM for completion. This includes 
investigations for military recruits as well. All contractor 
investigations and military top secret initial and periodic 
reinvestigations will remain with DSS, as will Army accessions 
investigations.
    Prior to this initiative, DOD components were directed by 
my organization to begin submitting all civilian investigations 
to OPM beginning in October of last year.
    All told, the spend plan calls for the conduct of almost 
2.2 million investigations, both initial and periodic, over the 
next 2 years, at a cost of over $700 million. The total number 
of investigations destined for OPM over the next 2 years is in 
excess of 800,000 at a cost of just over $200 million. OPM has 
been a close and cooperative partner in these initiatives and 
has ramped up its resources in order to accommodate the 
additional work that will begin arriving actually in less than 
2 weeks time.
    In addition, in August of this year, my organization issued 
detailed instructions to the DOD components designed to 
successfully accomplish the comptroller's spend plan. This 
action has the advantage of relieving pressure on CCMS, thereby 
allowing it to more rapidly process incoming investigations for 
top secret investigations, both initial and PR, for military 
and contractor personnel. It will also help ensure the 
expeditious completion of accession investigations in less than 
75 days so that most recruits should be immediately eligible 
for a security clearance by the time they complete their basic 
training.
    While the above initiatives should assure that all 
delinquent PR investigations are initiated by the end of fiscal 
year 2002, it does not complete the process. The DOD Central 
Adjudication Facilities [CAFs], will require additional 
staffing to accomplish the significant increase in workload to 
ensure that the backlog of cases does not languish while 
awaiting adjudication.
    The Deputy Secretary of Defense has recently commissioned 
yet another review of this plan to ensure that it can be 
accomplished at all levels and that all impediments have been 
identified and addressed. As we heard, the DOD IG is currently 
working on a report on the same subject, and several of our 
CAFs are already embarked on plans to hire temporary 
adjudicators as well as to utilize reserve personnel to ensure 
a smooth and timely flow of cases.
    There are a number of key successes to the overall spend 
plan. First, the components must provide cases and funds as 
scheduled. Second, DSS and OPM must be able to meet their 
production goals. Third, adjudications must be accomplished in 
a timely manner. Fourth, quality must be maintained in all 
phases of the process. Finally, and not least, DOD must do a 
better job in identifying investigative and clearance 
requirements and incorporating them into the planning, 
programming and budgeting system so as to ensure the 
availability of necessary resources and to preclude a 
reoccurrence of a problem.
    There is a little bit of good news. The defense agencies 
have funded this backlog out of hide and will for the most part 
be current by the end of fiscal year 2000, this month.
    In addition, the DOD intelligence agencies, like----
    Mr. Shays. I don't understand what you say. They will be 
current?
    Mr. Leonard. Their individuals who have security clearances 
in defense agencies and in the DOD Intel agencies will be 
current with respect to reinvestigations in accordance with the 
national standards, 5 years for top secret, 10 years for 
secret.
    Mr. Shays. Current in what way?
    Mr. Leonard. Again, they will meet the national standard. 
The national standard says, if you have a top secret clearance, 
your investigation must have been completed within the past 5 
years. If you have a secret clearance, the investigation must 
have been completed within the past 10 years.
    Mr. Shays. You mean it will have been submitted?
    Mr. Leonard. Will have been submitted, yes, sir. Submitted 
and funded.
    Mr. Shays. But not investigated and adjudicated.
    Mr. Leonard. Clearly, a number of them will be in the 
queue.
    Mr. Shays. Be careful what you are saying there. Don't play 
a mind game with me here.
    Mr. Leonard. Certainly.
    Mr. Shays. You are saying that there will be no one in the 
Department who is up for review whose name won't have been 
submitted----
    Mr. Leonard. In the defense agencies and in the DOD portion 
of the Intel community, yes.
    Mr. Shays. OK.
    Mr. Leonard. In the interest of time, what I would like to 
do is really then defer to the rest of my written statement and 
turn it over to General Cunningham and, more importantly, 
answer your questions, Mr. Chairman.
    Mr. Shays. Great.
    [The prepared statement of Mr. Leonard follows:]
    [GRAPHIC] [TIFF OMITTED] T4831.031
    
    [GRAPHIC] [TIFF OMITTED] T4831.032
    
    [GRAPHIC] [TIFF OMITTED] T4831.033
    
    [GRAPHIC] [TIFF OMITTED] T4831.034
    
    [GRAPHIC] [TIFF OMITTED] T4831.035
    
    [GRAPHIC] [TIFF OMITTED] T4831.036
    
    [GRAPHIC] [TIFF OMITTED] T4831.037
    
    [GRAPHIC] [TIFF OMITTED] T4831.038
    
    [GRAPHIC] [TIFF OMITTED] T4831.039
    
    [GRAPHIC] [TIFF OMITTED] T4831.040
    
    [GRAPHIC] [TIFF OMITTED] T4831.041
    
    Mr. Shays. General Cunningham.
    General Cunningham. Thank you very much, sir. I would like 
to submit my statement for the record.
    Sir, this is a very serious problem, and while we are 
working it hard, this does not mitigate the seriousness of the 
backlog. We are now able to do more work. Our system is working 
much more in accordance with architecture and specification 
than before.
    As I reported to you before, we were going to have those 
elements in place. They are now in place and we are conforming 
to them. Steady improvement is coming not only in the system 
but also through the use of private sector augmenting 
contractors. They are coming up to speed. Last time I was here, 
I told you we were bringing them on. They are all on, except 
one. Which means we have five, lacking one, which we expect to 
get completely in place within the next couple of weeks. Good 
progress there.
    I would like to talk now a little bit about the Case 
Control Management System itself. A year ago, CCMS was 
described in a TRW study as appropriate to be scrapped; that 
the future of it was highly in doubt. I reported to you before 
that we would bring TRW back at an appropriate time this summer 
to do an outside assessment. They are conducting that 
assessment now.
    They gave us an interim report, and I emphasize interim 
report, because they have another week or 10 days to spend with 
us, but they are surprised, in a positive way, with the 
progress that we have made. They complimented us on the way we 
have done our interdocumentation and improved the performance 
and reliability of this system. Their forecast for bringing up 
the system is positive.
    They agree with us and with the community that this system 
should likely be replaced at some print. Indeed, with all IT 
you should have that on your horizon, and we expect to bring 
that into our next program objective memorandum, a replacement 
system into the 5-year defense plan. Nevertheless, it will be 
served years before this would come to fruition.
    Our field operations have----
    Mr. Shays. Let me say, and it is not meant to be a cheap 
shot, but your comment that a system is always meant to have a 
new system in place, that is the competitive model in the 
private workplace----
    General Cunningham. Yes, sir.
    Mr. Shays. The competitive model in the private workplace 
is, if you can't do the job, you go out of business. And if you 
were a business, you would be out of business. Because we 
haven't been able to do the job, and there would be a new 
business that would have replaced you.
    So I just make the point to you that the more I think about 
this, the more incredulous I feel. Because in the private 
workplace, they would simply have solved the problem much more 
quickly, or they wouldn't exist. That is the problem we have in 
a government model.
    So, it is interesting the analogies we are going to draw to 
the private workplace.
    General Cunningham. Sir, your point is well taken. But if I 
may, this is the system we had a year ago. The mission is 
security. You don't stop or just shift gears like that. We had 
to work hard to make this thing come into spec to the degree it 
could be brought. We did that. We have done that in a 
reasonable fashion. But, at the same time, we would be fools to 
continue to say this is the ``forever system,'' operating with 
the future year's defense plan, and not put anything else in 
there to replace it. That is the point I was trying to make.
    Mr. Shays. I understand that.
    General Cunningham. In the field, and there is a lot of 
human participation in this, where our agents in the field 
conduct their investigations, we have improved the software for 
them. So, if you will, their front office, their laptop, is now 
working in a much more responsive way. The results are that we 
did get our target of 2,500 completed investigations in August. 
It was not a flash in the pan.
    The systemic changes that have been made, sir, if I may 
continue----
    Mr. Shays. You can continue as much as you want. I just 
want to give you a sense of every 5 minutes.
    General Cunningham. Thank you, sir.
    We know that we have to continue to be able to do better 
work and to do it faster, and mechanization is very important 
in this. We know that our system is not rocket science, and 
indeed that we have to take care of our people. We are doing 
that.
    We know that we have a backlog. The backlog is serious, 
and, indeed, we have had a major input. But to be able to 
sustain our 2,500 DMC contract is not to stay at 2,500 but to 
go beyond that. We feel we will do that.
    I am happy to report to you today, two-thirds through the 
month of September, that the August numbers met our contract, 
and we will again meet our contract this month. In fact, we 
hope to go a little bit beyond. That is going to be a regular 
thing with us. Are there going to be problems along the way? 
Sure, but we are in a far better position to deal with them.
    Let me go on to what I think gets to your point, and it is 
an excellent one. What are we doing about it? What is in our 
future and what do we need to do better? We have had a lot of 
discussion within the Department of Defense, and I am happy to 
report there is considerable progress, but the discussions that 
you had here with the previous witnesses highlight that you 
must know the requirements up front in order to work a three-
part process.
    We talk about investigations, feeding adjudications. 
However, little is said about the importance of that well-
defined, scrubbed and prioritized requirement that is the first 
element in this three-part process. We talked about this 
briefly the last time I was here.
    What I am suggesting and what Ms. Shuster alluded to is our 
ongoing discussions now with the military departments and the 
need to plan, program and budget for security clearances in the 
same way they plan, program and budget for everything else that 
they do under Title X responsibilities within the military 
departments. The reception to that idea has been, I think, very 
good; and that, too, is not rocket science. It is practiced 
every day in the Department. It is simply a matter of rolling 
this kind of requirement into that same process. If you know 
you are going to have a digitized battlefield and there are 
certain security clearance requirements that will grow with 
that, then you program for the MOSs to have those security 
clearances when they come.
    All kinds of things follow from that. You understand as you 
move into budget development what is eventually going to be 
required, so you can shape that. Indeed, we agree with the plan 
that the Department has to work this backlog, and we think it 
will work. But what happens after that will be driven largely 
by how we plan, program and budget.
    Sir, in the interests of further discussion and your 
limited time, I would like to leave it at that.
    Mr. Shays. Thank you.
    [The prepared statement of General Cunningham follows:]
    [GRAPHIC] [TIFF OMITTED] T4831.042
    
    [GRAPHIC] [TIFF OMITTED] T4831.043
    
    [GRAPHIC] [TIFF OMITTED] T4831.044
    
    [GRAPHIC] [TIFF OMITTED] T4831.045
    
    [GRAPHIC] [TIFF OMITTED] T4831.046
    
    [GRAPHIC] [TIFF OMITTED] T4831.047
    
    [GRAPHIC] [TIFF OMITTED] T4831.048
    
    [GRAPHIC] [TIFF OMITTED] T4831.049
    
    [GRAPHIC] [TIFF OMITTED] T4831.050
    
    [GRAPHIC] [TIFF OMITTED] T4831.051
    
    Mr. Shays. I have a vote, and I will vote and be back. It 
will take between 10 and 15 minutes. We will be in recess, and 
I will be back in 10 to 15 minutes.
    [Recess.]
    Mr. Shays. Mr. Leonard and General Cunningham, what I am 
going to do is ask our staff on both sides of the aisle to ask 
some questions first, and then I may interrupt them and have 
some questions myself.
    I will first recognize Vincent Chase.
    Mr. Chase. General, Mr. Leonard, I would like to ask a 
series of questions as relates to the Case Control Management 
System.
    First of all, it is our understanding that the initial 
system was approximately--the cost to acquire and implement 
this system was about $100 million. Can you tell us at this 
point how much money you have spent to try to upgrade the 
system in order to handle the DSS workload?
    General Cunningham. Yes, sir. Last year, when we knew that 
work had to be done oin the system, the President's budget in 
January 2000 included an additional $22 million. We are now 
working that within our base.
    Our approved funding from 2001 on, that we have total in 
the program for CCMS, is $180 million.
    Mr. Chase. So if I understand that, in order to implement 
the three phases that we have discussed and the new target 
architecture, it is going to be how much?
    General Cunningham. OK, let me go to what it took to get 
the system working, stabilized. I think that was the first part 
of your question.
    That was the $22.9 million. Then to go beyond the stable 
and approved system the future years' defense plan, and to take 
it out to the target architecture, requires an additional $94 
million. That is currently in the budget development process. 
That is across all years, out to 2007. No decision, of course, 
has been made on that within the Department.
    Mr. Chase. Right. So we are talking about $116 million as a 
grand total, roughly $116 million.
    General Cunningham. That is in the approved program, to run 
all of our operations and maintenance, everything involved in 
the CCMS, not just developing it.
    Mr. Leonard. Actually operating it on a day-to-day basis.
    Mr. Chase. Do you see the additional funding that is going 
to be needed down the road to get the system up?
    General Cunningham. To take it through to our project 
architecture is reflected in our POM. We see nothing in 
addition to that.
    Now, a follow-on system that would be included, should it 
make sense in our next POM, that all needs to be worked out and 
priced. That needs to be done within DSS and taken through the 
process in C3I and through the whole comptroller process.
    Mr. Chase. The next question has to do with OPM, and it is 
related to the whole Case Control Management System.
    We have transferred roughly, what, 40 percent of the 
workload out of DSS. A portion of that has now gone to OPM.
    Mr. Leonard. As of October 1st.
    Mr. Chase. Before you made that decision, did you look at 
their Case Control Management System? I didn't know if they 
called it that, but basically the Case Control Management 
System they have got, did you look at their system?
    Mr. Leonard. For incorporation----
    Mr. Chase. To make sure they could handle the workload.
    Mr. Leonard. Yes, we did look at their system. I can't 
recall the exact numbers off the top of my head. I can get back 
to you on them.
    But OPM was able to clearly demonstrate to us they were at 
a fraction of their capacity from a system perspective, and 
that in order to ramp up, so to speak, principally what they 
would have to do would be to hire data input personnel, the 
people part of it. That was the most significant part of their 
ramp-up.
    From a system capacity point of view, yes, sir, they had 
the capacity to absorb roughly 400,000 additional 
investigations a year for the next 2 years.
    Mr. Chase. Did you consider why their system was working as 
well and maybe--did you, frankly, look at their system?
    Mr. Shays. Would the gentleman just yield? Excuse me. Hold 
on 1 second. I just want to make sure I understand. You said 
400,000 in the next so many years. I think that is too 
imprecise for the committee; 400,000 when?
    Mr. Leonard. 400,000 in--it is either several thousand 
above or below--I can't recall off the top of my head--400,000 
in fiscal year 2001 and 400,000 roughly in fiscal year 2002, 
for a total of 800,000 roughly investigations over the next 2 
years.
    Mr. Shays. That is good.
    Mr. Leonard. I can provide the precise numbers for the 
record, if you would like.
    Mr. Shays. I just wanted to have that.
    Mr. Chase. Just a couple more questions. When you looked at 
OPM's system, did you look the at the cost of their system?
    Mr. Leonard. From what perspective? From a perspective of 
incorporating----
    Mr. Chase. From a perspective of procurement and 
acquisition and implementation?
    Mr. Leonard. That clearly will have to be part of the 
equation.
    As I mentioned right up front, oversight from my 
organization has had shortcomings, especially with respect to 
the acquisition of a major automation system. Clearly--and I am 
not telling the committee they don't know--one of first steps 
you need to do in that process is to analyze your alternatives. 
Clearly, one of the alternatives is, rather than build it 
yourself, can you get it somewhere else?
    That was not done to the fullest extent in the case of 
CCMS. We are committed in terms of applying a maze-like process 
to the future architecture, and those types of issues will be 
addressed up front before the Department commits itself to a 
future architecture above and beyond what is needed to 
accomplish the plan as laid out in the comptroller's memo and 
to ensure that DSS has the continued capacity and capability to 
do that portion of the work that will be directed toward them.
    Mr. Chase. Will that process be part of the--it was 
recently implemented last year. It is the General's contract he 
has with the Department of Defense. Is that process part of 
that council review?
    Mr. Leonard. The maze-like process? That will be a process 
in accordance with the 5,000 series of directives within the 
Department of Defense and also under C3I's role also as the 
Chief Information Officer and Clinger-Cohen Act and the 
appropriate OP-OMB directives.
    Mr. Chase. I just want to switch gears. General, the 
outside consultant was developing an algorithm that was going 
to ferret out the riskiest cases in the backlog. Could you give 
us the status of that?
    General Cunningham. Yes, sir. The algorithm to which you 
are referring to was the algorithm to discern from the 
electronic personnel security questionnaires those 
investigations that were likely to be complicated and those 
that were likely to be fairly simple and clean. We were able to 
make a very good correlation between responses given on the 
EPSQ and those who lose clearances later.
    That has been completed; it has been tested; it will be 
implemented with our 2.2 version update of our software for 
CCMS. That is scheduled to take place in 30 days, and we will 
have that algorithm operating.
    Mr. Chase. OK.
    Mr. Shays. David.
    Mr. Rapallo. General Cunningham, how many cases did you 
close per day as of last February when we had the hearing?
    General Cunningham. Last February we closed about 1,500. 
That was our first move up after implementing our first 
improvements into the system. Prior to that, for the duration 
that we had CCMS, we averaged between 900 and 1,000 a day.
    Mr. Rapallo. You are up to now----
    General Cunningham. 2,500, slightly over.
    Mr. Rapallo. So your goal last February was an average of 
2,500. So you are not quite there, but you are up to the 2,500?
    General Cunningham. Yes, sir. When I signed the Defense 
Management Council contract, which was agreed to previously, I 
knew that we could not do an average for the year of 2,500. It 
was out of the question. I was signing that off well into the 
fiscal year. I knew the state of the system. I watched daily 
what we were producing and where the problems were. But that 
train had left the station, and so I lived with it.
    At first, it was troublesome to me to be sitting with a 
contract, knowing that I couldn't deliver. Nevertheless, after 
I thought about it for a while, I said, ``This will be good for 
you. This will give you something to work for.'' And it was.
    We put the mark on the wall in February, some months after 
I had briefed Secretary Hamre, having done a regression 
analysis with what we planned to do in the system, we would hit 
out DML contract no later than August. Of course, that contract 
kept us moving in that direction. We improved, as I predicted, 
in February, March, April, May and June.
    In late June, we ran into a situation, due to manual 
archiving, we overshot the system. A data base administrator 
working hard in the middle of the night and let it overshoot. 
It overshot, it overwrote times, it brought us down, and it 
took us most of the month of July to recover.
    That is more than a hiccough. That was devastating to us 
because we could have hit our 2,500 in June. We would have a 
longer track record. We don't have that. We can't cry about 
that.
    How do you fix that? Oracle version 8.1 that we will 
install in 4 months does not allow that to occur. That is part 
of our continuing development on this system.
    Mr. Leonard. Mr. Chairman, if I could add, this was your 
fundamental point; and it is important to acknowledge that, 
even with DSS achieving their goal of 2,500 a day, this 
situation is getting worse, because, quite frankly, General 
Cunningham is getting 3,000 a day in every day. You don't have 
to be a rocket scientist to figure out if you are getting in 
3,000 and only putting out 2,500, the problem is getting worse. 
However, that in part was the fundamental reason to enter into 
this partnership with OPM; and in essence what our strategy is 
now is we will be vectoring off the high volume but low 
intensity from a scope point of view, investigations, the 
highly automated investigations, to OPM. Their system can 
absorb this very easily.
    These are the automated record checks for recruits, for 
example 18-year-olds, and all you need to check is, do they 
have an arrest record, those types of things. By vectoring 
those off to OPM, that will create an environment for General 
Cunningham and his folks where, quite frankly, if they keep 
up--they don't even need to keep up with 2,500 to be able to 
start eating into that backlog. That's a very significant 
point.
    General Cunningham. Sir, if I may complement that a little 
bit, add to that, even before the OPM strategic partnership, 
which we applaud, last summer we began the development of these 
contractors to augment from the private sector as discussed 
last time. The first two that were brought on were done before 
I got to DSS and were done out of Mr. Leonard's office to go by 
letter contract. Those contractors alone, are producing now a 
little over 100 a day themselves. They will grow to 150 a day 
in the near future. That's over and above what we were 
considering within this 2,500.
    In addition to that, the next batch of contractors that we 
brought on, of the four I described earlier, we now have three 
on board. They have the capability to eventually reach 250 a 
day, each, and I expect them to hit that level in about a year.
    Mr. Rapallo. I think that capacity building is really 
positive, but my question relates more to how you know ``how 
many are coming down the pike'' kind of thing. It seems like 
there are a lot of factors that could affect that. What are 
some of those factors? You have reinvestigations coming due. 
That's something you're trying to figure out now.
    Mr. Leonard. I have to sit before you here this morning to 
express continued frustration and dissatisfaction from a 
departmental perspective that we cannot to this day we cannot 
answer that question with the granularity that it deserves. The 
reasons for that are varied. I don't want to belabor that. I'll 
be happy to go into any depth you'd like to.
    Mr. Rapallo. Some, you can figure out.
    Mr. Leonard. Yes, we can figure it out in a rough order of 
magnitude. That's what we have done. But the basic problem is, 
we have had a culture in the department where the clearance 
stuck with the person as opposed to being tied to the job. And 
so individuals then, once they got put in for a TS SCI 
clearance, somehow, some way that stuck with them irrespective 
of what future assignments they might have and what have you.
    General Cunningham is absolutely, positively right. What we 
do as a building, day in and day out, is we plan program and 
budget for what our requirements are, whether it's ships, 
ammunitions, training for pilots and what have you. The problem 
is, clearances up to this point in time have been treated like 
a commodity, just like a government pen. I go to the file 
cabinet, I reach in and pull it out, and that's how it had been 
treated in the past; and that culture in part has led us to 
this problem.
    What we have to instill within the Department is a culture 
that this is--instead, as an asset; it's an asset no different 
than people, than systems, than training, and it has to be 
managed as an asset. And if you don't manage it as an asset, 
you are going to be given even more headaches from a management 
point of view, as we heard from Mr. Mancuso in terms of his 
headaches, just as a manager in terms of effectively utilizing 
his personnel.
    I think Ms. Schuster said, pay me now, pay me later; that 
lesson has been driven home, I think in spades, to every user 
within the Department. And then the recognition, if I don't 
plan and program and budget for these like I do everything else 
in the Department, we are never going to get to the heart and 
soul of this.
    The Joint Personnel Adjudication System that we're going to 
start beta testing in 2 months, that's not the answer, but it's 
a tool. It will be a tool that will be available to the 
services and to the other components to begin to instill the 
discipline and the management that this very valuable asset 
needs; and we can't be treating them like office supplies, like 
we may have in the past when you didn't have to manage them.
    Mr. Rapallo. Just to be fair, though, there are some 
circumstances where you just can't predict when you might need 
them. I can't remember if it was the GAO report or the IG's----
    Mr. Leonard. And there are provisions, then, to work around 
that. And we have been employing those provisions to work 
around that when that happens. There are risk tradeoffs. And 
obviously mission requirements can't wait for an investigation, 
especially if that investigation is going to take a year or 
more, especially if your mission requirement is a military 
operation of some sort. There are provisions for interim 
procedures, for risk-based approaches to granting interim 
access, supplementing them with extra supervision or what have 
you, those provisions have been used in the Department.
    It's a greater challenge. I have to manage my resources 
more so. But there are these built-in provisions to the system 
that allow you to manage it if you utilize these provisions 
appropriately.
    Mr. Rapallo. I think I understand what you're saying. I was 
talking about more systemic changes, like retirement age of a 
lot of people.
    Mr. Leonard. It goes beyond that, even. Just the way we 
conduct operations as a department; the revolution in military 
affairs, what that means. What we saw in Kosovo is, we're in an 
environment today now where our objective is to have a short 
cycle time between eyes on target and when that shooter gets 
that information. What that entails now is that now your 
shooter, if you will, F-15 pilot or whatever, needs real-time 
intelligence. It's a change in the way we do business. It's a 
change in our doctrine. It drives these types of requirements.
    We need to be smarter when we're recognizing that we're 
upgrading our technical capabilities in this area, that, hey, 
these have consequences; and what it means now is, I have more 
people having real-time, hands-on access to real-life 
intelligence. That means they're going to need the higher level 
clearances where they may not have necessarily needed them in 
the past.
    So you're absolutely right. Again, I go back to my opening 
comment, it permeates every element to interpret how we do 
business.
    Mr. Rapallo. Maybe I could have one more question.
    General, do you have any control over the number of cases 
coming into your office?
    General Cunningham. No, sir.
    Mr. Rapallo. So you have no control. So you've just 
established your goal at 2,500.
    General Cunningham. No, the Defense Management Council.
    Mr. Rapallo. They establish the goal for you?
    General Cunningham. OSD, which has a good sense of history, 
established that goal because, as I understand it, it was very 
wisely done. That was their sense of the number we would have 
to do to be sure we would take care of initial requirements. 
But even at that, that was an estimate, that was not a 
programmatic detailed assessment.
    Mr. Rapallo. The number might go up, incoming, it might go 
down in the future. Is your funding at all tied to that?
    General Cunningham. Yes. I defer that to Bill.
    Mr. Leonard. Yes. Again, if you want to go back to how do 
we get into this position, clearly one of the fundamental 
problems we had--this goes back years; it's nothing recent--is 
that there has been a fundamental disconnect between 
requirements and this man and his predecessor's budget. We need 
to fix that if we're going to preclude this from happening 
again.
    Mr. Shays. Bottom line--I have about 10 minutes, and I'd 
like to just ask a few questions.
    The bottom line question I have is just to get an answer to 
David's question, in the sense of understanding what it means. 
Mr. Leonard, you said that because you're transferring 40 
percent of the cases, be they small cases, to OPM, that you 
don't even need to do the 2,500.
    And I need to know under what context you make that 
statement. What is your goal?
    Mr. Leonard. Basically the goal is, we have the challenge 
to do 2.1 million investigations over the next 2 years. Of that 
portion, 45 percent of that belongs to DSS.
    Mr. Shays. If you do 2.1 next year what does that mean?
    Mr. Leonard. That's 2.1 million over 2 years. So----
    Mr. Shays. What does that mean?
    Mr. Leonard. It means that 45 percent of those, a little 
less than 900,000-and-some-odd will be coming in the front door 
at DSS over the next 2 years.
    What they need is, they need the cap----
    Mr. Shays. I want to know what it means to the backlog.
    Mr. Leonard. What it means to the backlog?
    Mr. Shays. I want to know what it means.
    Mr. Leonard. What it means is that at the end of that 
period, if we generate----
    Mr. Shays. After what? Don't say ``after the period.'' What 
period?
    Mr. Leonard. At the end of fiscal year 2002, September 30, 
2002.
    Mr. Shays. We're talking basically 2 years from now.
    Mr. Leonard. Two years from now, yes, sir, 2 years from 
next week what that will achieve is that everyone who has a 
security clearance, an active security clearance, will either 
have an investigation that is current in accordance with the 
national standards or they will have submitted the paperwork 
and identified the funding to accomplish that investigation. 
That's what that means.
    Mr. Shays. What will the backlog be?
    General Cunningham. Sir, may I try that? The backlog will 
be eliminated because that work that's coming in will be 
initial work within our workload. That's--in a business that's 
called ``carry-in.''
    Mr. Shays. I understand that. So basically your definition 
of backlog--so then how long will it take to do a current case?
    General Cunningham. By then, we will be able to do a case 
within 180 days. Our target is going to be less than 100 days.
    Mr. Shays. I think that's a joke. You mean, it takes 6 
months when we're current, potentially it will take 6 months 
when we're current? If I were the President of the United 
States, I would be outraged with that logic. In my own mind, I 
think I've got 4 years to be President of the United States, 
and you're telling me that basically one-eighth of my time is 
going to be spent with people who are in process. You would 
just drive me crazy with that logic. Why would we want it to 
take 6 months?
    General Cunningham. We don't want it to take 6 months, sir; 
however----
    Mr. Shays. I just say this: Why would we want to take 2 
years to get the backlog down? So you're telling me that the 
next President of the United States is basically, potentially 
going to have a backlog for half of their term.
    General Cunningham. Sir, everybody who applies for a 
security clearance does not have a clean background.
    Mr. Shays. So?
    General Cunningham. There are matters that need to be 
pursued.
    Mr. Shays. Yes, sir.
    Mr. Leonard. And that 180 days is an average. There will be 
cases that will be done especially for those critical positions 
critical missions, that will be accomplished in 35 days.
    Mr. Shays. And?
    Mr. Leonard. Pardon?
    Mr. Shays. And?
    Mr. Leonard. ``And?''
    Mr. Shays. And then finish off the average. So it will be 
longer than 6?
    Mr. Leonard. Some will be longer.
    Mr. Shays. That's crazy. I'm just telling you, in my 
judgment, that's just idiotic.
    Will the record note one of the witnesses went like--lifted 
a hand up in the air like--translate that for me, General.
    General Cunningham. Sir, it is not necessarily idiotic. 
Because we have to be very fair to the subject who is being 
investigated. We have to be judicious in the leads that we run. 
We often learn something during the investigation that requires 
other leads.
    Mr. Shays. But you're not suggesting to me, as soon as 
their case is filed, that they start to investigate. It may 
take you 4 months before you even start to investigate. So 
that's just bogus.
    General Cunningham. Not in that timeframe, it won't, sir. 
It will not take us 4 months.
    Mr. Shays. Are you telling me everyone will begin their 
investigation within a month?
    General Cunningham. Yes, sir.
    Mr. Shays. You are?
    General Cunningham. Yes, sir.
    Mr. Shays. Say it to me.
    General Cunningham. Sir, by the beginning of fiscal year 
2003, we will be in a position to begin the investigation for 
an actionable EPSQ, electronic personal security questionnaire, 
within 30 days.
    Mr. Shays. And then what happens?
    General Cunningham. That's what we call opening the case. 
The investigation, the field work begins.
    Mr. Shays. I just want to say, General, I don't know if I'm 
going to be around in 2 years. But, you know, just as in 
February we wanted to hold your feet to the fire, to what was 
now--and hold you accountable, you know, I hope whoever is in 
my position here does the same thing, because you're making a 
pretty strong statement.
    General Cunningham. Yes, sir. I intend it to be that.
    Mr. Shays. And I don't see the logic of it. I don't see the 
logic of why a case is going to take, on the average, 6 months. 
I don't see the logic to that. I don't see why that's in our 
best national interest. I don't see why anybody would want to 
claim that's what should be the case. So that causes me some 
concern.
    General Cunningham. Sir, your concern is well placed. If I 
may, I also said we would be striving to complete them within 
100 days; and if you'd like, I could explain more why I say 
that.
    Mr. Shays. Well, we have a challenge with time. Let me get 
two questions on the record right now.
    DOD has shifted a considerable volume of investigations and 
reinvestigations to the Office of Personnel Management and 
outside contract investigators. I'd like to ask both of you, 
what are the future projections for continued use of outside 
contractors? I'd like to know, is the use of DSS outside 
contractors subject to an OMB Circular A-76 public-private cost 
comparison? And I want to know, if not, why not?
    So those are my questions. So the first is, what are the 
future projections for continued use of an outside contractor, 
contract investigators?
    Mr. Leonard. The plan that I outlined to you, Mr. Chairman, 
entailing vectoring the work off to OPM, is a 2-year plan; and 
the intent at this point in time is that at the end of the 2 
years that type of work would return back to DSS. However, I 
have to tell you, Mr. Chairman, that I am enough of a realist 
to know that 2 years from now, when we look back in terms of 
how we accomplished this, the only thing I can probably be 
absolutely certain on is that it will not have been in 
accordance with the plan. Because no plan is that omnipresent 
and what have you.
    So what it will entail is close oversight, close scrutiny, 
continued flexibility, and the ability to respond to changes as 
appropriate.
    With respect to the outsourcing within DSS, I will let 
General Cunningham answer that question.
    Mr. Shays. The circular A-76.
    General Cunningham. Sir, I do not know what will happen 
with regard to A-76. I do know that we intend to continue to 
use private sector contractors to augment our work, and that 
it's essential that, where serious derogatory information is 
encountered by contractors, working under DSS contracts----
    Mr. Shays. Excuse me 1 second.
    I'm sorry.
    General Cunningham. I think it's essential that those 
investigations that run into serious derogatory information 
being conducted by contractors, default back to the Defense 
Security Service the way in which we are working with our phase 
two augmenting contractors now.
    Mr. Shays. Some believe the cost to upgrade CCMS will be 
$300 million, not $100 million. It was--the $100 million was--
excuse me, to upgrade it will be $300, and you had to spend 
#100 million to acquire.
    The OPM system cost $35 million and it seems to be working. 
Just there's obviously a reason, but if you--just 1 minute.
    General Cunningham. Sir, the OPM system, it's my 
understanding, involves some use of paper. Our system handles 
an extremely high volume; and I think that's an apples-and-
oranges comparison.
    Mr. Shays. Fair enough.
    Mr. Leonard. Could I make one point?
    Mr. Shays. It's got to be quick. I have 3 minutes to vote.
    Mr. Leonard. The only point I want to make, sir, is an 
issue of standards. Changes in standards help get us into this 
perspective. Overnight it created a backlog of almost 400,000 
investigations when we changed the investigative standard for 
Secret. What we would ask the Congress for is to be mindful of 
that as the Congress considers changing standards as well.
    Mr. Shays. I think that's fair. But I think you all should 
be asking when Congress does that, to provide all the resources 
you need to get the job done.
    Mr. Leonard. Yes, sir.
    Mr. Shays. I fault the administration, frankly. It's not 
meant as a political statement. I fault them for not realizing 
this is a big deal and putting all the pressure on Congress and 
then Congress has to explain it. But we're not even in that 
situation.
    And I fault you all for not saying this needs to be done 
sooner and we need the resources to do it. I don't fault you 
for not getting the job done if you don't have the resources, 
but if you don't ask for them, then I have a problem with it.
    Sorry to have the last word, but this hearing is adjourned.
    [Whereupon, at 12:32 p.m., the subcommittee was adjourned.]

                                   - 
</pre></body></html>
